<html>
<title> - CONFRONTING TRANSNATIONAL DRUG SMUGGLING: AN ASSESSMENT OF REGIONAL PARTNERSHIPS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                      CONFRONTING TRANSNATIONAL DRUG
                      SMUGGLING: AN ASSESSMENT OF
                         REGIONAL PARTNERSHIPS

=======================================================================

             Committee on Transportation and Infrastructure
                           Serial No. 113-67
                      Committee on Foreign Affairs
                           Serial No. 113-241

                             JOINT HEARING

                               BEFORE THE

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION,

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                AND THE

                SUBCOMMITTEE ON THE WESTERN HEMISPHERE,

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2014

                               __________

                       Printed for the use of the
         Committee on Transportation and Infrastructure and the
                      Committee on Foreign Affairs
                      
                      
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                    
                      
                      


 Available online at: http://www.gpo.gov/fdsys/browse/committee.action?
           chamber=house&committee=transportation and http://www.foreignaffairs.house.gov
                                        ____________                                
                      
                          U.S. GOVERNMENT PUBLISHING OFFICE
87-699 PDF                        WASHINGTON : 2015             

_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                    
                      
                      
                      
                      
                      
                      
                      
                      


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDREE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida

                                 

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        RICK LARSEN, Washington
PATRICK MEEHAN, Pennsylvania         TIMOTHY H. BISHOP, New York
STEVE SOUTHERLAND, II, Florida,      LOIS FRANKEL, Florida
  Vice Chair                         CORRINE BROWN, Florida
TOM RICE, South Carolina             JANICE HAHN, California
MARK SANFORD, South Carolina         NICK J. RAHALL, II, West Virginia
DAVID W. JOLLY, Florida                (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)

                                  (ii)

  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman

CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California         Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania            Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
LUKE MESSER, Indiana                 JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director

                                 ______

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman

CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina          Samoa
RON DeSANTIS, Florida                THEODORE E. DEUTCH, Florida
                                     ALAN GRAYSON, Florida

                                 (iii)
                                 
                                 
                      
                                 
                                 
                                 
                                 
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter from the Subcommittee on Coast Guard 
  and Maritime Transportation of the Committee on Transportation 
  and Infrastructure.............................................    vi
Memorandum from the Subcommittee on the Western Hemisphere of the 
  Committee on Foreign Affairs...................................    xi

                               WITNESSES

Admiral Robert J. Papp, Jr., Commandant, U.S. Coast Guard, U.S. 
  Department of Homeland Security:

    Testimony....................................................     7
    Prepared statement...........................................    35
    Answers to questions for the record from Hon. Eliot L. Engel, 
      a Representative in Congress from the State of New York....    40
Ambassador Luis E. Arreaga, Deputy Assistant Secretary of State, 
  Bureau of International Narcotics and Law Enforcement Affairs, 
  U.S. Department of State:

    Testimony....................................................     7
    Prepared statement...........................................    42
General John F. Kelly, U.S. Marine Corps, Commander, Southern 
  Command, U.S. Department of Defense:

    Testimony....................................................     7
    Prepared statement...........................................    47
    Answers to questions for the record from Hon. Eliot L. Engel, 
      a Representative in Congress from the State of New York....    93

                       SUBMISSIONS FOR THE RECORD

Admiral Robert J. Papp, Jr., Commandant, U.S. Coast Guard, U.S. 
  Department of Homeland Security:

    Response to request for information from Hon. Duncan Hunter, 
      a Representative in Congress from the State of California, 
      regarding the percentage of counterdrug Federal/general 
      grants that are provided to help the Coast Guard's 
      counterdrug operations.....................................    16
    Response to request for information from Hon. Ileana Ros-
      Lehtinen, a Representative in Congress from the State of 
      Florida, for a summary of the Coast Guard's interactions 
      with Cuba regarding counterdrug operations/initiatives, 
      including the Coast Guard's April 2014 visit to Cuba.......    26
General John F. Kelly, U.S. Marine Corps, Commander, Southern 
  Command, U.S. Department of Defense, response to request for 
  information from Hon. John Garamendi, a Representative in 
  Congress from the State of California, regarding how the U.S. 
  Southern Command might deploy unmanned aerial vehicles for the 
  benefit of its missions........................................    23
  
  
  

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                     CONFRONTING TRANSNATIONAL DRUG



                      SMUGGLING: AN ASSESSMENT OF



                         REGIONAL PARTNERSHIPS

                              ----------                              


                        TUESDAY, APRIL 29, 2014

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                             joint with the
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:06 a.m. in 
Room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(Chairman of the Subcommittee on the Western Hemisphere, 
Committee on Foreign Affairs) presiding.
    Mr. Salmon. A quorum being present of the subcommittee, the 
subcommittees will come to order. I am going to start by 
recognizing myself and the ranking member--actually, our 
ranking member isn't here. I will recognize myself and my 
fellow cochairman, Mr. Hunter, and then we will go to the 
ranking member on that subcommittee. And we are pleased to have 
this hearing today. Without objection, the members of the 
subcommittees could submit their opening remarks for the 
record.
    And now I yield myself as much time as I may consume to 
present my opening statement. And I want to start, first and 
foremost, by thanking my colleague, Chairman Duncan Hunter of 
the Transportation and Infrastructure Subcommittee on Coast 
Guard and Maritime Transportation and his staff for working 
with me and my staff to convene today's timely and important 
hearing on confronting transnational drug smuggling and an 
assessment of our strategy and regional partnerships.
    Recently the U.N. issued a report naming Latin America as 
the most violent region in the world, with 13 countries in the 
region listed among the top 20 worldwide in homicide rates. In 
fact, the top six most murderous countries per capita are all 
right here in our own Western Hemisphere.
    Transnational criminal and narcotics trafficking 
organizations are becoming more sophisticated in evading law 
enforcement and, as the U.N. report suggests, increasingly more 
violent. This violence along our border and near our shores 
poses a great threat to our national security and destabilizes 
our region. The United States has spent over $1 trillion since 
the 1970s attempting to disrupt and dismantle drug cartels in 
Latin America with mixed success. I have convened this hearing 
jointly with Chairman Hunter today to drill down into whether 
U.S. law enforcement and military assets are being properly 
leveraged to address this serious threat.
    In this fight we have seen the consequences of our country 
being forced to confront dwindling financial resources when the 
DOD de-emphasized its commitment to interdiction efforts which, 
in turn, affected our overall counternarcotics efforts. I am 
concerned what a disengaged DOD means for our overall 
counternarcotics strategy in the region. I think we must 
assume, at best, a level budgetary environment going forward. 
So our strategy to combat transnational criminal organizations 
needs to balance this budgetary constraint with still finding 
solutions that combat this scourge.
    Excuse me. From a foreign policy standpoint, we need to 
find ways to better engage our regional partners and help them 
build capacity more efficiently and more effectively. 
Ambassador Arreaga, you and I spoke briefly about important 
steps INL has taken to work with our hemispheric partners to 
build capacity and empower them to address the serious 
challenges posed by increasingly violent drug-trafficking 
organizations. I look forward to hearing more about the 
successes and challenges you face in implementing INL's piece 
of the overall strategy.
    Where possible, I would like to see replicas of some of the 
most successful programs that we have helped implement in the 
region, like Plan Colombia and the Merida Initiative of Mexico. 
Of course, the success plan of Colombia was only possible 
because of Colombia having the political will and leadership to 
win their country back from the terrorists and narco-
traffickers.
    In Mexico we have seen an increased commitment on the part 
of the Mexican Government to partner with the U.S. in this 
effort through the Merida Initiative and other joint 
operations. This commitment has yielded very important 
successes, and we continue to build on them. It seems clear to 
me that no amount of U.S. taxpayer monies will ever be enough 
to finally turn this situation around without the buy-in and 
the support of the people and governments of Central America 
and the Caribbean.
    I am looking forward to hearing more about the success of 
Operation Martillo--or ``hammer,'' in English--since its 
inception in January of 2012. But I want to personally and 
publicly congratulate all who were involved in the two big 
cocaine seizures earlier this year in the southwestern 
Caribbean. I understand the street value of the seizures would 
have been somewhere in the neighborhood of $300 million. I 
think that this is a great example of what we can accomplish 
when we work together with our regional partners.
    I want to thank the Coast Guard and the SOUTHCOM Joint 
Interagency Task Force South for hosting my staff in Florida 
earlier this year in preparation for this hearing, and for 
agreeing to testify today. And it is always a pleasure to have 
State Department's Bureau of International Narcotics and Law 
Enforcement Affairs here to provide their insight on Central 
American and Caribbean security programs in the hemisphere. I 
thank them for their willingness to work with my staff on a 
daily basis, and to come to our hearings, and to answer our 
questions.
    I am hopeful that this hearing will be an important step 
toward a more cohesive and more effective multi-agency strategy 
to protect our national security interests in our hemisphere.
    I will now recognize Chairman Duncan Hunter for his opening 
remarks.
    Mr. Hunter. Thank you, Mr. Chairman. Good morning, Admiral, 
General, and Ambassador. Great to see you. General Kelly, 
really great to see you.
    The subcommittees are meeting today to review the Federal 
Government's efforts to confront transnational drug smuggling 
and stem the flow of illegal drugs to the United States. I want 
to thank and commend Chairman Salmon and the House Committee on 
Foreign Affairs for agreeing to explore this important topic in 
a joint hearing.
    Illicit drug use remains a serious concern for the United 
States. Illegal drugs not only pose a strain on our Nation's 
health care and criminal justice systems, but their trade and 
transport cause significant safety and security concerns. The 
transport of illegal drugs affects millions throughout the 
country and the world. Some of the most notorious and violent 
criminals, cartels, and narco-terrorists are directly 
responsible for drug violence, crime, and corruption that are 
destabilizing foreign nations and risking the lives of American 
citizens here and abroad.
    Representing southern California, I am very aware of the 
harm that drug traffickers inflict on our communities. In 
recent years, violence stemming from the drug trade has spilled 
over the Mexican border and has led to the kidnappings and 
murders of numerous American citizens and law enforcement 
officers. A little over a year ago, Coast Guard Senior Chief 
Petty Officer Terrell Horne was killed while leading a boarding 
team in a counterdrug operation off the coast of Santa Cruz, 
California. Senior Chief Horne was carrying out the Coast 
Guard's mission to interdict and apprehend illegal drug 
traffickers on the high seas.
    Stopping bulk drug shipments at sea before they are broken 
down into smaller packages is the most effective and efficient 
way to stop the flow of illegal drugs across our borders. The 
Coast Guard is the lead agency in maritime interdiction because 
it has unique military and law enforcement authorities which 
enable it to seamlessly disable a drug smuggling vessel, seize 
the drugs, and arrest the crew. But that only works when the 
Coast Guard, SOUTHCOM, and partner agencies and nations have 
the resources and assets to act on intelligence targets.
    However, cuts to the military's budget, coupled with aging 
and rapidly failing Coast Guard assets, are undermining mission 
success. SOUTHCOM and the Coast Guard were only able to 
interdict roughly 20 percent of the cocaine bound for the 
United States in recent years. It is not because you don't know 
where the rest is, but that is all you have the assets to 
interdict. That is half of the national target. Since 2009, the 
Coast Guard has only achieved its cocaine interdiction rate 
once.
    I hope today's hearing will help clarify the direction we 
need to take in the future to ensure our men and women in 
uniform have the resources and assets they need to carry out 
this and other critical missions.
    I know that I said this at our last hearing, but this will 
be the last time that Admiral Papp will appear before us. 
Maybe. Unless he comes to something else later. I want to again 
commend you for your leadership and thank you for your 
tremendous service to our Nation.
    You know, this is an interesting hearing for one big reason 
for me, and it is this: We can do 100 percent of this, 
theoretically, if you have the assets to do it. So, by only 
doing--by only interdicting 20 percent, what that means is we 
don't really care about the other 80 percent. And we are not 
talking about marijuana here, we are talking about opiates, 
heroin, and cocaine, the main stuff brought up from the south 
that we are not decriminalizing here in the United States that 
kills our kids.
    So, with that, let's just--especially, if we could right 
now--talk about why we don't care about the other 80 percent. 
Why are we not trying to hit our target, when it just takes 
more assets to do so? It doesn't take a new paradigm of how to 
interdict or anything; it just takes the assets.
    So, with that, I yield back.
    Mr. Salmon. Thank you. I recognize Mr. Garamendi.
    Mr. Garamendi. Mr. Chairman, thank you very much. Mr. Sires 
is not here. Perhaps Mr. Meeks could take his place. OK, good. 
Thank you.
    I am going to really shorten my statement here. The 
chairman, Mr. Hunter, handled almost all of it having to do 
with the Coast Guard, the Coast Guard budget, and the effect 
that the budget, or the lack of a good budget, is having on the 
Coast Guard's ability to do its work, and quite possibly the 
reality that maybe we really don't care that much, because we 
don't seem to be putting sufficient money into the effort. In 
fact, it appears as though the current situation would even 
further diminish the Coast Guard's budget and its ability to do 
its job.
    The chairman, Mr. Hunter, has gone through all of that, so 
I don't propose to repeat all of it. But there is one thing 
that I would like to cover. And since the Foreign Affairs 
Committee has joined us--we have joined them--on this hearing, 
all too often we look at this problem from the point of view of 
America, and not often from the point of view of the countries 
that are supplying the drugs. Latin America, looking at the map 
that was put on our desk here. We can go to Southeast Asia or 
even to a place called Afghanistan. And we need to look at the 
perspective from those countries, and hear their view of our 
efforts or lack of efforts. You mentioned, Mr. Salmon, the 
issue of Colombia and the work that has been done there, which 
is a pretty good example of what can be done when we work with 
those countries that are our partners in this problem.
    So, at some point--I know we have the Ambassador here, and 
he will undoubtedly speak to us about the issue from that point 
of view, at least from the American point of view. But perhaps 
the Ambassador from Mexico might want to give us their point of 
view of this, or Colombia, or other countries that are the 
partners in this problem. So I would recommend that we do that 
at some point, and listen carefully to their point of view, and 
see how that would affect our own strategies here.
    In the meantime, our subcommittee, the Subcommittee on 
Coast Guard and Maritime Transportation, is doing the best we 
can to make sure the Coast Guard has its assets. However, we 
are seriously hampered by sequestration, by the budget that 
passed the House of Representatives 2 weeks ago would make it 
even more difficult, because it does continue sequestration in 
the outyears. In fact, sequestration on steroids, making all of 
this even more difficult.
    With that, I will yield back whatever remaining time I 
have.
    Mr. Salmon. Thank the gentleman. I recognize the gentleman 
from North Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I will be very brief. 
It has been pretty well covered. As Mr. Duncan Hunter said, 
Admiral Papp is probably making his swan song today, my old 
shipmate--strike that, my young shipmate. But, Admiral, I 
appreciate very much what you have done. Best wishes to you in 
your next life. But it has been a good rapport between our 
subcommittee and the Nation's oldest continuous seagoing 
Service. Always ready. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you. Mr. Meeks?
    Mr. Meeks. Thank you, Mr. Chairman. And I want to thank 
both chairmans that are here, and, of course, Ranking Member.
    Let me just say narcotics has long been one of the main 
areas of focus of the United States foreign policy in Latin 
America. Seventeen of the twenty-two nations which President 
Obama identified as major producers of illicit drugs in 2014 
are located in Latin America or the Caribbean. So this is not 
just an American problem, but it is truly a hemispheric 
problem, and one which we must tackle head on, and we must do 
it in multiple ways, I believe, and not just one way.
    As a friend of Latin America and a frequent visitor to the 
region, I have seen the effects of illicit drug trade 
personally. In fact, in Colombia, for example, a country which 
I care deeply about, have been to several times, I have seen 
the devastating effects the drug cartels and related criminal 
activity have had on particularly minority populations, 
especially the Afro-Colombian and indigenous peoples in places 
like Buenaventura and Cali. The horrendous violence and tragic 
poverty in such areas is a direct result of the drug trade. And 
while recent involvement of the police and military of our 
President Santos may give short-term solutions, we must combat 
the evils underlying society in these places in order to 
elevate the local people to the lives that they deserve.
    I returned just last week from a trip to Haiti and 
Guatemala and Mexico City. And there, too, I saw what can 
result in countries which are the hubs for drug transit. We 
must get to the root of this problem, and what facilitates the 
plague of drugs in the Western Hemisphere, and we must identify 
both the social and economic factors which contribute to the 
widespread production and transit of drugs in the region. And 
we must not rest until we are sure that they have been 
eradicated for good.
    We know we have got to coordinate while we do this. We have 
got to coordinate what interdictions and what the Coast Guard 
is doing and what we have, to try to make sure that it is 
coordinated and we can run them out and not use what happens 
where we can run them from one country and they run to another 
country and--because they feel that we don't have the same kind 
of assets there.
    So, despite, though, my frustration with what is going--
this ongoing problem in the region, I must also say that I am 
optimistic. I am optimistic because we have the tools at our 
disposal that are working, and we have new tools that we are 
developing. And when I visited, for example, the National 
Police Academy in Haiti last week, I learned about a new 
partnership with the New York Police Department, and how the 
United States is facilitating counternarcotics capabilities 
abroad with our friends and partners.
    I also believe that legal trade is a powerful antidote to 
illicit drug trafficking. The free movement of goods and 
services is at the heart of a strong rule of law. And I am 
confident that new and upcoming free trade agreements will 
bolster the ability of the United States neighbors to develop 
robust, diversified economics which are not dependent on drugs. 
And I am confident that local farmers and workers will be able 
to find ways to make their living honorably, and to give back 
to their countries. Building trade capacity is an issue I care 
deeply about. And I believe this Congress must lend its support 
for the sake of both America and its partner nations.
    Lastly, I believe combating the drug trade is also 
important to bridge our differences and work together to solve 
a problem which hurts us all. I look forward to the day when 
America once again--we can't do it now--but can cooperate with 
Venezuela, for example, in combating narcotics. I look forward 
to extending our hands in friendship to our neighbors in a 
sincere effort to rid the hemisphere of this horror, and to 
build new regional partnerships that will bring us closer 
together than ever before.
    Thank you, I yield back the balance of my time.
    Mr. Salmon. Thank you. Ms. Hahn, do you have some comments 
you would like to make?
    Ms. Hahn. I have a question.
    Mr. Salmon. OK, fine. We will go ahead and introduce.
    Pursuant to Committee Rule 7, the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official hearing record. Without objection, 
the hearing record will remain open for 7 days to allow 
statements, questions, and extraneous materials for the record, 
subject to the length of limitation of the rules.
    Admiral Papp is the 24th commander--Commandant, excuse me--
of the United States Coast Guard. He previously served as the 
commander of the Coast Guard Atlantic Area, overseeing all U.S. 
Coast Guard operations in the eastern half of the world. 
Admiral Papp is a graduate of the United States Coast Guard 
Academy. He also holds an M.A. in national security and 
strategic studies from the U.S. Naval War College, and an M.S. 
in management from Salve Regina College.
    Ambassador Arreaga is a Deputy Assistant Secretary of State 
for the Bureau of International Narcotics and Law Enforcement 
Affairs. Prior to his appointment, he served as the United 
States Ambassador to the Republic of Iceland, and deputy chief 
of mission at the U.S. Embassy in Panama. Ambassador Arreaga 
holds a Ph.D. in economics and an M.A. in management from the 
University of Wisconsin.
    General Kelly is commander of the United States Southern 
Command. Prior to his current position, he served as a senior 
military assistant for the Secretary of Defense, and commanded 
Marine Forces Reserve and Marine Forces North. General Kelly is 
a graduate of the University of Massachusetts and U.S. National 
War College.
    I know it goes without saying you all understand the 
lighting system. Just understand that it goes yellow about the 
time you have about a minute left, and it goes red--it is time 
to cut it off. And you guys are so distinguished, I am not 
brave enough to probably cut you off, so try and be as adherent 
to that as you can.
    And, with that, Admiral Papp.

  TESTIMONY OF ADMIRAL ROBERT J. PAPP, JR., COMMANDANT, U.S. 
 COAST GUARD, U.S. DEPARTMENT OF HOMELAND SECURITY; AMBASSADOR 
LUIS E. ARREAGA, DEPUTY ASSISTANT SECRETARY OF STATE, BUREAU OF 
   INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, U.S. 
  DEPARTMENT OF STATE; AND GENERAL JOHN F. KELLY, U.S. MARINE 
 CORPS, COMMANDER, SOUTHERN COMMAND, U.S. DEPARTMENT OF DEFENSE

    Admiral Papp. Thank you, Chairman Salmon. And good morning, 
again, to Chairman Hunter and Ranking Member Garamendi, and to 
all the members of the subcommittees. I want to thank you for 
the opportunity to be here this morning to thank you for your 
continued support of the Coast Guard, and also to discuss the 
challenges that we face in confronting the illicit smuggling in 
the Western Hemisphere and its consequences that it has for our 
country.
    And I would be remiss this morning if I didn't recognize 
some of our other partners in this fight: the Department of 
Justice, and our partner agencies in the Department of Homeland 
Security who also contribute greatly to the efforts to stem the 
flow of illicit traffic into the United States.
    We continue to face a significant threat in the drug 
transit zones of the Western Hemisphere and in the southern 
maritime approaches to the United States. Ruthless 
transnational criminal organizations advancing their illicit 
trade through coercion, bribery, and violence create a 
destabilizing effect on both the governments and economies of 
the Western Hemisphere and our partner nations.
    For instance, for the second consecutive year, Honduras has 
the world's highest murder rate, a direct result of the massive 
influx of U.S.-bound cocaine entering Central America through 
the western Caribbean Sea and the eastern Pacific Ocean. And 
those drugs reach our shores, and the activities of those 
sophisticated criminal networks have an impact on America's 
streets, as well, in the form of gang violence and turf wars by 
urban drug dealers.
    Coast Guard is the lead Federal agency for maritime law 
enforcement in support of the administration's national drug 
control strategy, and the strategy to combat transnational 
organized crime. On the frontlines of our detection, 
monitoring, and interdiction and apprehension operations, the 
Coast Guard deploys major cutters, long- and medium-range 
fixed-wing aircraft, airborne use-of-force helicopters, and our 
law enforcement detachments embarked on Navy and allied 
warships to stop drug traffickers in the transit zone, before 
the drugs can approach our shores.
    And working with U.S. Southern Command and the Departments 
of State and Justice--a really important fact here--we have 
established more than 40 maritime bilateral law enforcement 
agreements with our international stakeholders, including 
Venezuela, who we still cooperate with in the drug war.
    Our unique combination of ships, aircraft, and authorities, 
and partnerships has continuously proven to be an effective 
interdiction system when employed in the transit zone. Over the 
last 5 years, Coast Guard ships and law enforcement detachments 
operating in the offshore regions have removed more than 500 
metric tons of cocaine with a wholesale value of nearly $17 
billion. This is more than two times the amount of cocaine and 
twice the purity seized by all other U.S. Federal, State, and 
local law enforcement agencies combined.
    This is where we get the very best value for the taxpayer's 
dollar. It is also where we have our first best chance to 
address this problem: close to the source, and far from our 
shores, where the drugs are pure and uncut, where they are in 
their most vulnerable bulk form, and before they are divided 
into increasingly smaller loads, making them exponentially 
harder and more expensive to detect and interdict.
    And, Chairman Hunter, in response to do we care about the 
other 80 percent, of course we care about the other 80 percent. 
But it is not just about the drugs. For every shipment that we 
interdict at sea, we gather valuable information about the 
sophisticated criminal enterprises that move these drugs. By 
understanding the criminal networks, we are better prepared to 
combat other illicit enterprises, including human traffickers 
and international terrorists. Our interdictions remain a key 
weapon in the U.S. arsenal to combat transnational criminal 
networks.
    The Coast Guard and its partners rely upon this what we 
call cycle of success to disrupt the networks behind the 
illicit trafficking in the Western Hemisphere. Successful 
interdictions and subsequent prosecutions provide actionable 
intelligence on future events, producing follow-on seizures and 
additional intelligence, thus feeding that cycle of success. 
Our at-sea interdictions are the engine that drives this cycle 
and our success. More than half the designated priority drug 
targets extradited to the United States from South America over 
the last 10 years are directly linked to Coast Guard 
interdictions.
    Over 60 named drug-trafficking organizations have been 
dismantled because of our investigations originating with or 
supported by Coast Guard interdictions. The removal of these 
networks helped countries like Colombia restore citizen 
security and economic opportunity, contributing to a $14 
billion increase of imports of the United States goods over the 
last 20 years.
    But despite our success, far too many illicit drugs still 
reach our shores. Our reduced numbers of ships can stop only a 
fraction of the contraband our intelligence tells us is moving. 
Erosion of this cycle of success, either through degraded 
intelligence, a reduction in ships and aircraft, or a decrease 
in prosecutions, will have a chronic negative impact on our 
Department's mission to secure and manage our borders.
    And you don't need to look any further than a recent news 
report from Chicago to get a sense of how these criminal 
networks are impacting our communities once these drugs reach 
the homeland. The Sinaloa Cartel uses Chicago as a distribution 
hub by exploiting people in underserved communities to traffic 
their illicit goods. The impacts of this cartel activity are 
felt throughout our communities and manifest themselves in a 
host of problems infecting our society.
    This problem is not going away. The flow of illicit trade 
and drugs, people, and all the many forms it takes continues to 
threaten our homeland. Those engaged in this business bring 
their traffic on, over, and even under the sea, and exploit our 
global supply and transportation chains to deliver contraband 
to the market. The offshore interdiction of illegal drugs in 
bulk quantities is critical to the safety and security of our 
Nation.
    But even more important is the understanding and disrupting 
the sophisticated criminal networks that transport these drugs 
and sow instability throughout Central America and Mexico, and 
adversely impact our safety, security, and prosperity. As the 
Department of Defense rebalances the bulk of its fleet to the 
western Pacific, and as Coast Guard cutters continue to age, I 
fear that this problem is only going to get worse. Sustaining 
the cycle of success by strengthening international 
partnerships, investing in cutter and aircraft 
recapitalization, and leveraging interagency capabilities will 
keep deadly, addictive drugs off U.S. streets, disrupt 
transnational criminal networks, create space for security 
within the Western Hemisphere, and facilitate the safe flow of 
legitimate commerce and transport.
    So, I want to thank you for the opportunity to speak on 
this very important topic this morning, and I look forward to 
answering your questions.
    Mr. Salmon. Thank you, Admiral.
    Ambassador Arreaga?
    Mr. Arreaga. Good morning, Chairman Salmon, Chairman 
Hunter, Ranking Member Garamendi, and other distinguished 
members of the subcommittee. Just a word of warning, my accent 
sometimes gets the better of me. So if you hear something that 
doesn't make sense, it really does make sense; I just 
mispronounced it.
    [Laughter.]
    Mr. Arreaga. Thank you so much for the opportunity to 
appear today with my colleagues, General Kelly and Admiral 
Papp, to discuss our work to undermine transnational organized 
crime, minimize its impact in the United States--on the United 
States, and improve citizen security in the Western Hemisphere.
    The State Department's Bureau of International Narcotics 
and Law Enforcement Affairs, or INL, leads the Department's 
anticrime, counternarcotics efforts globally. We shape and 
deliver assistance programs in nearly 80 countries to help 
partner nations build their capacity to fight crime and 
prosecute criminals under the law. This is, no doubt, an 
enormous responsibility. And INL does not approach it alone. We 
partnered with the best and brightest in the United States 
Government to impart expertise and training, and we also 
partner with police departments, courts, and corrections 
entities from a number of your constituencies.
    In the Western Hemisphere the United States has established 
partnerships to confront shared threats and advance common 
interests. The collection of the maritime initiative with 
Mexico, our longstanding partnership with Colombia, the Central 
America Regional Security Initiative, CARSI, and the Caribbean 
Basin Security Initiative constitute our strategic approach to 
enhance and professionalize civilian enforcement institutions, 
court systems, and corrections capacity, so that they can 
investigate and undermine criminal groups, prosecute criminal 
offenders, and remove them from their operations.
    While the State Department has no direct role in 
interdiction efforts, the governments that we mentor and train 
in the Western Hemisphere do. Our assistance efforts results in 
enhanced foreign government capacity to interdict drugs, 
investigate crimes, and prosecute and incarcerate criminals.
    In the Bahamas, Jamaica, Panama, and Costa Rica, civil 
police and prosecutors, working with maritime law enforcement 
components, patrol their waters, seize narcotics, and 
judicialize cases. In other areas of the hemisphere, where law 
enforcement capacity is less developed, our regional partners, 
such as the Government of Colombia, are working in coordination 
with our programs to develop basic policing skills, and they 
are also working with our U.S. law enforcement and military 
partners to pursue narcotics traffickers.
    These successes, large and impressive as they are, pale in 
comparison to the magnitude of the drug transit threat in our 
hemisphere. Furthermore, while we are making progress in 
building partner nation capacity, and I want to emphasize this, 
it cannot make up for gaps in U.S. interdiction assets in the 
region. Let me repeat that. It cannot make up for gaps in U.S. 
interdiction assets in the region.
    We know that the Caribbean is experiencing an increase in 
drug flows, with a majority of shipments occurring by a 
maritime means. In 2011, cocaine transiting the Caribbean to 
the U.S. totaled approximately 5 percent of the total flow. 
This increased to 9 percent by 2012, and 16 percent by the end 
of 2013. Central America remains a priority, as 80 percent of 
documented drug flow from South America transits Central 
American territory. Under CARSI, the United States is 
implementing a comprehensive and integrated approach to stem 
illegal trafficking.
    We also recognize that it will take many years to see 
fruits of our efforts in Central America, owing to the 
magnitude of threats we confront there.
    The partnerships between the State Department, partner 
nations, the U.S. Coast Guard, and U.S. SOUTHCOM constitute a 
proven and trusted mechanism that works every single day.
    It is also important to note that regional partnerships 
between nations are flourishing, that joint operations have 
become more common, and that information sharing is happening 
in a near-real-time basis. This is a proven formula. While 
these are all significant developments, they are not enough to 
curtail the magnitude of trafficking operations. U.S. foreign 
assistance expertise and engagement by our law enforcement and 
military partners remains critical. However, the capability 
gaps abroad require more from us.
    Chairman Salmon, Chairman Duncan, and other distinguished 
Members, thank you for your focus on this important topic. I 
look forward to our discussion.
    Mr. Salmon. Thank you.
    General Kelly?
    General Kelly. Members of the committee, I look forward to 
discussing the strong counternarcotics partnerships between 
U.S. Southern Command and the interagency--especially the U.S. 
Coast Guard and the Department of Homeland Security and INL. 
Together we defend the southern approaches, or we try to defend 
the southern approaches of the United States.
    Chairmen, Members, those southern approaches are being 
assailed by dangerous criminal networks that are well 
resourced, adaptive, and skilled at exploiting all avenues of 
approach to the United States. Illicit trafficking threatens 
our country at every land, air, and sea border, and challenges 
the sovereignty of many of our partners in Latin America and 
the Caribbean. The Department of Defense plays a critical 
supporting role in the fight against illicit trafficking, 
although this role is under discussion and some disagree with 
it.
    As you know, we have congressionally mandated statutory 
responsibility as the lead Federal agency--that is, U.S. 
Southern Command does--as the lead Federal agency for detection 
and monitoring of aerial and maritime transit of illegal drugs 
towards the United States. Like the U.S. Coast Guard and DHS, 
along with DEA, FBI, and INL, we also build the partner 
capacity of nations which helps enhance security, stability, 
and antitrafficking efforts throughout Latin America and the 
Caribbean. Together, with U.S. law enforcement and intelligence 
from foreign, military, and law enforcement partners, we focus 
on combating illicit drug trade, and supporting interdiction as 
far from our borders as possible, before those drugs are broken 
down into nearly impossible-to-detect load sizes.
    Our support to interdiction efforts not only keeps drugs 
like cocaine, heroin, and methamphetamines from violating our 
shores, it puts international drug traffickers in jail and 
leads to invaluable intelligence that enhances our 
understanding of trafficking networks. All with almost no 
violence.
    And when we are adequately resourced, the defend-forward 
approach is very effective, although my component--Joint 
Interagency Task Force in Key West receives only 1.5 percent of 
the total U.S. Government counternarcotics budget, 1.5 percent. 
With the support of partners like DHS and the Coast Guard, DEA, 
and FBI, they remove--are responsible for removing 68 percent 
of all of the seized cocaine heading towards the United States.
    Our international partners are also key to our 
effectiveness, especially in our ongoing counterdrug operation, 
Martillo. Fifty percent of Martillo's interactions would not 
have been possible without the contributions of our partners. 
The outstanding support of nations like Colombia, Panama, 
Guatemala, Honduras, Belize, Costa Rica, and even Nicaragua, 
not to mention Canada, the United Kingdom, France, and the 
Netherlands, it is what makes Martillo a success. I will be 
frank; we could not do it without these partners. They are 
fighting our drug fight for us. And their courage and 
commitment, in my opinion, is second to none.
    And human rights, ladies and gentlemen, are first and 
foremost in all of our relationships with these countries. And 
there is a lot we can do for them for very little, like 
providing inexpensive patrol craft with maintenance and 
training packages, as well as providing them ISR and 
intelligence support. Since we are unlikely to get any 
additional assets due to other global priorities, right now our 
partners are the only hope we have of putting a dent in the 
drug flow coming to the United States.
    And I emphasize this is our fight, not their fight. It is 
destructive to their countries, but it is our problem. And they 
are fighting it for us at great loss of life. They help us make 
a big dent all of the time. Last year alone, 132 metric tons of 
cocaine were seized and disrupted, thanks in part to their 
contributions to Operation Martillo, 132 tons, no violence.
    Unfortunately, that number is just a small fraction of the 
cocaine and other drugs that still reach our shores, which we 
were unable to get at, due to asset shortfalls. Since 2012, 
Southern Command has faced limited and declining U.S. 
Government maritime and air assets required for detection and 
monitoring and end game interdiction missions. We also receive 
less than 5 percent of our annual airborne ISR requirements. 
These limitations mean less presence, less deterrence, and less 
awareness of what is moving on trafficking networks, be it 
drugs, weapons, cash, human beings, or something even more 
detrimental to our national security, like terrorist agent or 
WMD.
    Make no mistake. Drug traffickers are exploiting our lack 
of presence, especially in the Caribbean. As we focus our 
limited assets off the Central American coast, we have started 
seeing a shift back to the old smuggling routes through the 
Caribbean. I worry that smaller Caribbean nations may soon be 
overwhelmed--I think they are being overwhelmed--by violence 
and powerful criminal networks as we have seen in some parts of 
Latin America--correction, Central America--already.
    On a recent trip to Haiti I saw some real improvement in 
the right direction in that country, but I fear the shift to 
the Caribbean, if left unchecked, could change the positive 
direction Haiti has taken.
    We are doing everything we can to at least partially 
mitigate this lack of assets. We are relying heavily on both 
the U.S. Coast Guard and Customs and Border Protection and 
other DHS assets, which now provide over 70 percent of the 
aircraft and cutters to support detection and monitoring 
mission. However, over the next few years, both the Department 
of Defense and the U.S. Coast Guard are facing an unprecedented 
downturn in the availability of large surface assets like U.S. 
Navy frigates and U.S. Coast Guard High Endurance Cutters.
    In 2016, the Navy frigate inventory will go to zero. This 
makes our reliance on the U.S. Coast Guard--the Nation's 
reliance on the U.S. Coast Guard and its national security and 
planned Offshore Patrol Cutters all the more critical. And I am 
deeply concerned to hear that the U.S. Coast Guard is facing 
major budget cuts, as is DOD.
    In closing, I share the Commandant's conviction--the Coast 
Guard Commandant's conviction that illicit trafficking by 
powerful criminal networks is a direct threat to our national 
security and the stability of our partners. I also share his 
concern that continued asset shortfalls pose a direct threat to 
the Department of Defense and U.S. Coast Guard's ability to 
counter drugs.
    I look forward to discussing these and other issues with 
you. Thank you.
    Mr. Salmon. I thank the distinguished panel. I yield myself 
5 minutes to ask my questions.
    My first question would be for you, Ambassador. There is a 
number of initiatives in the Western Hemisphere that share the 
objective of improving citizen security, including the Merida 
Initiative in Mexico, the Central America Regional Security 
Initiative, CARSI, the Caribbean Basin Security Initiative, 
CBSI.
    In what ways have State and USAID applied lessons learned 
from the various initiatives to maximize the effectiveness of 
their efforts across the Western Hemisphere? And maybe look at 
replicating success, as you mentioned--and I think yesterday, 
when we spoke, as well, we all agree that we have enjoyed 
tremendous success with Colombia. And I am wondering. How do we 
put all of that together and, from the lessons we have learned, 
how do we replicate some of those things?
    And I know that there are different nuances, but I would 
like your thoughts.
    Mr. Arreaga. Thank you for your question. That--it is a 
very good question. And, as you know, Chairman, you have--
different countries have different challenges, different levels 
of development. What we do try is to take the lessons learned 
from one to the other. And I think the case of Colombia is one 
case where Colombia is such a success story that they have 
become our partners. They export security. So we use them to 
train the forces, some of the forces in Central America on 
investigative techniques, polygraph management, interdiction 
techniques. And so--we take the success in one part of the 
country, we take it to another.
    Now we--let me give you another example. We are just about 
to establish a nationalized customs training academy in Panama. 
Now, this is a training academy that was established with INL 
funds and with enormous support from the Department of Homeland 
Security and CBP. This academy is now going to become a 
regional training center, where we are going to bring people 
from other parts of the hemisphere, from Central America, from 
Guatemala, and other places, so that they have the same 
doctrine, the same approach, the same type of techniques to 
control borders.
    Depending on the circumstances, when you think about, for 
example, our success in Peru, the success we have had in the 
Upper Huallaga Valley is because we have combined alternative 
development along with eradication. So we are looking at that 
model and see what we can transfer it to other areas. We are 
beginning to see some potential plantings of coca plants, as in 
other parts of Peru.
    Mr. Salmon. And I have said this before, and I think most 
people that worked with the Colombia initiative have recognized 
that, while the United States contribution to that process was 
substantial, I think all of you have said pretty much the same 
thing: there is no way that that would have been accomplished 
without the political will coming from the leaders themselves 
in Colombia.
    And so, as we look to try to replicate some of those 
successes, I am really heartened to know that you are using 
folks who are in the trenches in Colombia to actually advise 
and consult and, you know, get their hands dirty with Mexico, 
with possibly other Latin American nations. But I think there 
is also another reason for that. Besides actually having the 
people that demonstrated the political will, I think that using 
them, you know, is a little bit more influential, because 
sometimes I wonder if we suggest it, if it might just be dead 
on arrival just because we suggested it and, you know, the fact 
that it is the Big Brother or, you know, the--you know, the 
United States, sometimes it causes more problems than 
solutions.
    Why do you think in Colombia they finally turned the 
corner? Was it--you know, was it a rebound? Was it his efforts? 
Was it, you know, a combination of things? What are your 
thoughts? And I am interested in all three of you, because, as 
I look at some of the things going on in Mexico right now, I 
know a lot of people are kind of wait-and-see with the new 
administration in Mexico, and we have all been kind of 
pleasantly surprised with the tenacity that they have 
approached this problem.
    I would like your thoughts on, you know, how can we better 
utilize some of the successes in the region, and what can we 
recommend, going forward, to do that? General, I will start 
with you.
    General Kelly. Mr. Chairman, first I would say the term--
you said the U.S. investment in Colombia was substantial, 
significant, or whatever the term was. You are right, except 
that is a very relative term. United States, I think, 4, 5, 6 
cents on the dollar in terms of what was spent to, if you will, 
turn Colombia around in the drug fight. And, of course, 
virtually no boots on--they did their own bleeding. They did 
their own fighting and dying.
    What we did--and they will be, I think, eternally grateful 
for--is the encouragement that this country, our country, gave 
them in the drug fight. I can remember when I worked up here on 
Capitol Hill some years ago, the discussion back in the late 
1990s was should the United States allow Colombia to buy--not 
be given, but buy six Black Hawk airplanes, conventional 
helicopters. And the discussion in this room rotated around or 
oriented around the fact that why would we allow them to buy 
these things, it is a failed state, it is a narco state, it has 
gone over the edge, there is no hope for them. And, of course, 
here we are, 14 years later, 15 years later, and it is 
virtually a miracle, heroic effort. Why did they win? Because 
they were losing so badly. Why did they turn it around? Because 
they had no choice.
    The good news is we, as I say, allowed them--we supported 
them, we encouraged them. We did, in fact, in a sense, unleash, 
but unleash a small number of advisors and trainers, U.S. 
military. And it turned the place around. But the Colombians 
really did that themselves because they were losing so badly. 
Unfortunately, that same plan, that same attitude we are not 
focusing in the same way on countries that are today very close 
to going over the edge. Where Colombia was in the 1990s, they 
are just a few inches away from falling off the cliff. Yet we 
are restricted from working with them for past sins in the 
1980s.
    The beauty of having a Colombia--and they are such good 
partners, particularly in the military realm, they are such 
good partners with us--when we ask them to go somewhere else 
and train the Mexicans, the Hondurans, the Guatemalans, the 
Panamanians, they will do it almost without asking, and they 
will do it on their own. They are so appreciative of what we 
did for them. And, again, what we did for them was really 
encourage them for 20 years. And they have done such a 
magnificent job.
    But that is why it is important for them to go. Because I 
am, at least on the military side, I am restricted from working 
with so many of these countries because of limitations that are 
really based on past sins. And I will let it go at that, Mr.--
--
    Mr. Salmon. Thank you. I have run out of time. I am going 
to recognize Duncan Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Gentlemen, I guess it 
would be great if we could have the Judiciary Committee, where 
the money comes out for the counterdrug money that gets put 
into Federal grants throughout the United States. That is one 
big question, is why do you get so little of that. Is it 
because it is a jobs program throughout the United States for 
drug enforcement agencies at the municipal levels in the cities 
and States?
    I mean if you collect--if you had that money, you could 
theoretically reduce their need for a job at all, right, when 
it comes to drug interdiction within the United States. So why 
do you think that is? Do they have better lobbyists than you 
do? That is my question. Why is there less money going to you, 
as opposed to all these different agencies that the Department 
of Justice doles out grants to these agencies? Every local 
sheriff and every local police gets drug money to interdict 
drugs, and you don't. So why is that? Admiral Papp?
    Admiral Papp. Mr. Chairman, I--that is a real great grenade 
to jump on.
    [Laughter.]
    Admiral Papp. But----
    Mr. Hunter. Sorry I didn't ask one of the prescheduled 
questions.
    Admiral Papp. But truth be known, I don't know what the 
percentage is that they get, domestically. But what I do know 
is that I wear a number of hats. One of the hats I wear is----
    Mr. Hunter. General Kelly said 1.5 percent, 1.5 percent 
goes to SOUTHCOM and Coast Guard interdiction efforts. So that 
leaves 98.5 for everybody else.
    Admiral Papp. I can't confirm or verify or deny----
    Mr. Hunter. I trust----
    Admiral Papp [continuing]. On that figure. I would have to 
go back and research that.
    But what I will say is that one of the hats I wear is as 
chairman of the Interdiction Committee, the TIC, which reports 
to the director of the Office of National Drug Control Policy. 
We are focused on interdiction. But one of the things I have 
gained during my time as Commandant is an appreciation for the 
need for supply reduction and demand reduction. It has to be 
spread out. We can argue, and certainly I would advocate for 
more funds for what we do.
    On the other hand, I can't make a good judgment, because I 
think it has to be--much like Mr. Meeks talked about, we have 
to have a balanced approach to this. We need to work on 
reducing the demand, while we reduce the supply, while we work 
on trying to disrupt the transnational criminal organizations 
as well.
    Mr. Hunter. I don't want to run out of time----
    Admiral Papp. So I am trying to respond to your question, 
but I just don't know the figures and the percentages to give 
you an accurate enough response.
    [The information follows:]

        As part of the 11 statutory missions, the Coast Guard is the 
        lead Federal agency for maritime drug interdiction (and co-lead 
        agency for air interdiction). The Coast Guard receives 
        appropriated funds to carry out these missions and does not 
        receive grant money.

    Mr. Hunter. General Kelly?
    General Kelly. Congressman, I think, first of all, the 1.5 
percent is not what the Coast Guard gets. What I get to manage 
the detection and monitoring of--and to assist in interdiction, 
the drug flow. I would be guessing, though.
    On your question about domestic funding, I would guess 
because we have tended to look at this issue as, you know, the 
cancer that is within our country. And we see the--you know, 
what it does to our youth and, for that matter, middle-aged 
people and older people, and the drug abuse. You know, 40,000 
Americans die of drug overdoses every year. And you can't even 
count the human misery of the number of people living under 
bridges or selling their bodies for a fix, and all of this kind 
of thing.
    So, I think, you know, we look at it and we say, ``This is 
terrible, let's try to solve this problem at home.'' The last 
place to solve this problem--it is--part of the solution is 
here at home. But you know, once this drug gets ashore and 
makes its way into Mexico and the United States, it is 
impossible, really. I think we have a million law enforcement 
heroes in this country--DEA, local police, FBI--there is a 
million, and they get, about total, 20, 25 tons of cocaine 
every year. I can get 20--we can get, collectively, 25 tons of 
cocaine in a month, no violence.
    Mr. Hunter. That is not balanced. Admiral Papp, you said--
--
    General Kelly. Well, but that is where the fight is.
    Mr. Hunter. That is not balanced at all.
    General Kelly. I think the efficiency of the fight is 
before it gets ashore in Central America or, now, increasingly 
into Haiti and Dominican Republic. But we focused this war on 
drugs for 30 or whatever years on the streets of America, which 
is the last place you really want to kind of put your main 
effort. My thoughts.
    Mr. Hunter. I was reading, like, National Geographic or The 
Economist or something last week, and it said that the Sinaloa 
Cartel in the Sinaloa area in Mexico, that they are not growing 
weed any more, they are not growing any marijuana. They are 
growing poppies. What is the big uptick on heroin coming in?
    General Kelly. Surprise to me when I took this job. I 
thought heroin that fed the United States demand, the habit, 
came from other parts of the world. Virtually all of it now 
comes from Latin America--and if you talk to the DEA, they will 
confirm this--virtually all of the heroin that comes and feeds 
the drug habit in the United States is grown now and produced--
grown throughout Latin America, poppies, and then turned into 
heroin in Mexico, and then comes in. Virtually all of it. A 
tiny bit may come down from Canada, through Canada from, say, 
Afghanistan, but not a lot. It is almost entirely--and, oh, by 
the way, methamphetamines, again, largely produced today in 
Mexico and comes across the border.
    So, the zone that I live in, and that Admiral Papp, to a 
very large degree, fights alongside me, the zone that I live 
in, the three most detrimental influences in our society--
cocaine, which is the big money-maker, by the way, cocaine, 
heroin, and methamphetamine, is all produced south of the 
border and trafficked in on this incredibly efficient criminal 
network on which anything can ride: drugs, human beings, 
terrorists. Anything can ride on this network. It is--and it is 
globally linked.
    It is an amazing thing to see, and it is virtually a wide 
open entry into the United States or, for that matter, the 
United Kingdom. Or, for that matter, Africa. Or, for that 
matter, the Middle East.
    Mr. Hunter. Thank you. I yield back.
    Mr. Salmon. Thank you. Mr. Meeks?
    Mr. Meeks. Thank you, Mr. Chairman. Let me--I guess I will 
just start with General Kelly, just so that I have an 
understanding of where the figure come from. I think I saw 
someplace that in March you told the Senate Armed Services 
Committee that you only had 5 percent of the assets you need to 
perform drug interdiction duties in the Caribbean region. And 
so, I was wondering, where that figure comes from, because I 
thought that the annual DOD's budget for counternarcotics 
funding was over a billion dollars. So if it was only 5 percent 
that you had, I was just wondering how could that be.
    General Kelly. Sir, it is 5 percent of the ISR. That is 
airborne intelligence and reconnaissance. That is what--I only 
get 5 percent of what I think I need. And what that means is I 
only get 5 percent of aircraft like P-3 patrol aircraft, either 
from the United States Navy or from Homeland Security. The 
Border folks fly them and do tremendous work. We tend to fly 
those airplanes out of places like El Salvador, great partners. 
Or Honduras, great partners. But I only get 5 percent.
    And how you track this stuff as it moves on the high seas 
is we have a very, very good idea of when it leaves either 
Ecuador or Colombia. And then, as it moves either side of 
Central America--or now, increasingly off towards Puerto Rico, 
Haiti, Dominican Republic--as we get the intel, human intel, if 
you will, that it is about to move, then we pick it up, we 
vector--if we have them, which we generally don't--ISR 
airplanes to pick up the go-fast--it is a speed boat carrying 
anywhere between 1 and, say, 4 tons of cocaine. And we pick 
that up, and then that airplane watches it until either a Coast 
Guard or U.S. Navy helicopter--ship with a helicopter on it--
can get close enough. And once the helicopter shows up, they 
basically stop and we seize and it is seized.
    So, without that airborne assets--and, oh, by the way, we 
use anything we can get. I mean I have had B-52s flying 
training missions with ISR parts on them, B-1 bombers with ISR 
parts on them, flying over the Caribbean, not--in international 
airspace, doing that mission for me. So we beg for the assets. 
And, as I say, I will take any asset I can get. And sometimes, 
believe it or not, it is a bomber or a JSTARS airplane.
    Mr. Meeks. So, that--could there be some negotiations 
within DOD, or you talking about we need to give you additional 
assets or additional dollars to go to DOD to give you what you 
think you need?
    General Kelly. Sir, the national security policy or 
strategy of the United States, of course, is to pivot the 
Pacific, and to deal with the wars in the Middle East, and to 
deter other countries--you know who they are. That leaves--with 
the size of the U.S. military getting smaller, that leaves 
almost nothing for SOUTHCOM. I am not criticizing; that is just 
the reality of it.
    But again, this drug scourge causes our country 40,000 
deaths a year, $200 billion in costs, and I think, to a very, 
very large degree, the biggest crime, or the biggest emotional 
thing, in my mind, is the human misery it causes. Because the 
dead are dead, but the people who are struggling with this 
stuff--and, again, living under bridges and selling their 
bodies for a hit, is just something that, to me, you know, 
keeps me awake at night.
    But again, these are decisions made outside of my purview. 
I just define the problem.
    Mr. Meeks. And Admiral Papp, in your opening statement you 
indicated that you--we are continuing to work with Venezuela 
with reference to drug interdiction. Can you tell us how, and 
what is the relationship, or how--are they cooperating, or not 
cooperating?
    Admiral Papp. Yes, sir. We are getting good cooperation. I 
mentioned that we have 40 multilateral agreements. These have 
been worked out over the last 20 years with countries 
surrounding the Caribbean, South and Central America, based 
upon a partnership with the United States Coast Guard. And we 
work through the Department of Justice to hammer out these--and 
each one of them is a little bit different.
    But we still do, in fact, have protocols in place where we 
have a suspected vessel or Venezuelan vessel, we are able to go 
through these protocols to the Government of Venezuela, 
primarily the Venezuelan Coast Guard, and get permission to 
board vessels. And sometimes we have to make decisions that the 
vessels are returned to Venezuela. Other times we can take them 
for prosecution. But we continue to have cooperation there.
    And going back to what was--what Chairman Salmon answered, 
I have got a unique perspective on this, because I have been 
not only down there driving ships around the Caribbean, trying 
to do interdictions, but back in 1998 had a chance to do a 
diplomatic mission, going into Venezuela and Colombia. At the 
time, Venezuela was very friendly with us, and accepted us in 
there. When we pulled in Cartagena, in Colombia, quite a 
different situation there. Cartagena was one of the few towns 
that you could go around in safely.
    So I have had a chance to watch how Plan Colombia has 
worked, the partnerships we developed with the Colombians, and, 
in fact, have been down there dealing with their head of navy. 
And we are very proud of the way that they have taken on a 
regional leadership down there. In fact, they are running drug 
symposiums, bringing in other countries, and we continue to 
work with them and sustain that relationship.
    And I think the key to that has been a continued 
commitment. They know we are not going away. But I have to 
admit that, as they see fewer and fewer resources devoted to 
the counterdrug mission down there, they begin to get a little 
anxious, because they perceive that as perhaps us backing away 
from sharing the battle with them.
    Mr. Meeks. Can I ask one more question, Mr. Chairman?
    Mr. Salmon. I would like to go to the Ambassador now. I 
mentioned in my opening statement about this program that I saw 
in Haiti with New York City Policy Department officers there, 
working with them on a law enforcement and--on this--you know, 
this is, I think, good work on behalf of the State Department.
    I was wondering whether or not--are there other 
partnerships like that, where you find law enforcement from the 
United States working on the ground in some of the Caribbean 
islands to help with their judicial systems, or helping with 
their police systems? That way we can also get information 
there, and they can, in fact, lock up hardened criminals there 
before they come to the United States and spread illicit drugs. 
So is there any other kind of cooperation that the State 
Department is working with like the Haiti program any place 
else in Central America or the Caribbean?
    Mr. Arreaga. Indeed, and thank you for your question. This 
is a great question, because it gives us a chance to highlight 
some of the partnerships that we have developed with States all 
over the United States. For instance, we have a relationship 
with the corrections department in New Mexico. So we train 
corrections officers so that jails in the region are actually 
jails that are meant to rehabilitate, as opposed to make them 
worse criminals. We work with attorneys general to teach about 
prosecution. We do this with a number of States. We work with--
in fact, if I may, I would like to submit for the record a 
paper explaining all of the partnerships that we have.
    But this is one of the unsung aspects of what--the work 
that the United States is doing overseas. We are taking the 
expertise developed at various States--for instance, the Miami-
Dade Police Department does a lot of training in 
counternarcotics. We also have a partnership with the Port of 
Miami, where customs officers come to Miami to see how we 
handle port security.
    You talked about doing some prosecutions there. Absolutely. 
That is exactly what we are trying to do. We are trying to 
build capacity on the investigation side and the prosecution 
side and the courts, because we want to empower these 
governments, these countries, to apprehend criminals, to try 
them, and to incarcerate them and, you know, do the whole range 
of judicial--the process. And we do that, depending on--it all 
depends on, of course, the level of development. But that is 
part of our approach to security in the region.
    We also work with the office of--that deals with money 
laundering. We are encouraging countries to pass asset--for 
future laws, so that a lot of these agencies that have no 
resources can use that law to resource their activities. So we 
have lots of partnerships. And I think it is one of the best 
parts, because it gives us the flexibility to provide different 
types of assistance, depending on what is needed.
    Mr. Salmon. Thank you. Ms. Hahn?
    Ms. Hahn. Thank you, Mr. Chairman. Admiral Papp, during the 
last Coast Guard hearing you mentioned that drug, weapon, and 
human smuggling from panga boats still remained a huge threat, 
but that budget cuts hindered the Coast Guard's ability to 
counter this danger, since they reduced the manpower and 
operating hours of the assets the Coast Guard needs to combat 
this continuing threat.
    For instance, in your previous testimony, you stated that 
sequestration clearly affected the Coast Guard's drug 
interdiction efforts, as evidenced by the 35-percent reduction 
in marijuana seizures in fiscal year 2012 to 2013, when 
sequestration began to take effect. This clearly, obviously, 
shows that there is a direct correlation between the budget and 
operational capability, and that this common theme around here, 
that we all need to be doing more with less, is an impossible 
principle to constantly adhere to.
    Chief Petty Officer Terrell Horne lived in my congressional 
district at the time of his death from one of these panga 
boats. I live a mile from where one of those boats made land on 
the Palos Verdes Peninsula recently. So, of course, in my area, 
I am concerned about the potential effect that the next round 
of sequestration cuts could have on this danger, and especially 
as more evidence is showing that smugglers are increasingly 
using the southwest maritime route more and more.
    Just met last week in my district office with Admiral 
Schultz, the commander of the 11th District, and I also met 
with Captain Jenkins, the captain of the Port of Los Angeles. 
And I am very excited. And we also met with Captain Williams, 
who will be the incoming captain of the port, the first woman 
to hold that position in the history of the Coast Guard.
    So, we are all excited about that, but want to know what 
you can tell me of how you are working with local and foreign 
partners to ensure that our major American ports along these 
popular drug-smuggling routes such as L.A. and Long Beach are 
fully protected against this threat. And maybe in your answer 
you can also tell us how important it is that the Coast Guard 
at least maintains its current funding levels in order to 
preserve its current capability.
    Admiral Papp. Thank you, Ms. Hahn. That is a great 
question, and I thank you for your advocacy. And also, once 
again, I will thank you for being out there for the memorial 
service with me for Senior Chief Horne, and the compassion that 
you showed for his family.
    While I am answering your question, if I could ask for the 
slide that I brought with me, if I could get that up there, or, 
if not, we can use the table drop that we did. There we go.
    [Slide]
    Admiral Papp. The challenge that you are talking about is 
right there, of course, along the border. And you are right. 
When we dropped our activities by 30 percent, we showed a 35-
percent reduction in cocaine seizures for fiscal year 2013. And 
we are back to--we have restored our historic levels of 
operations right now. In fact, we have increased.
    Two new things that we are doing out there in your area is 
we are more frequently putting one of our major cutters in the 
area, rather than just patrol boats, because we can operate 
airborne use of force, one of our HITRON helicopters that stops 
the go-fast, the pangas, through--with trained marksmen. That 
has been so successful that, rather than tie up a cutter, we 
are now using--and we have cleared through the Department of 
Justice--we are using land-based airborne use of force. In 
other words, putting our HITRON helicopters at a shore station, 
and flying them under direction of the sector out there.
    The other thing that we are doing is we are leveraging our 
partnerships. We have the regional coordination mechanism, we 
call it. We have a command center at Sector San Diego, where we 
bring in our partners from Customs and Border Protection, 
Customs Air and Marine, the other Federal partners, and State 
and local law enforcement, as well, so we can coordinate and 
effectively synchronize all of our activities, get the most out 
of the resources that we have. We do that throughout the 
country.
    Each one of our captains of the port or our sector 
commanders, as you noted there, has very broad authorities. 
They head up area maritime security committees, they do port 
safety committees, and they bring all the partners together The 
only way we can get our business done effectively is through 
these partnerships that the Coast Guard is able to develop 
because of our broad-based authorities.
    Having said that, we are still limited by the amount of 
resources we can get out there. On this chart that I brought 
with me, we refer to these as threat vectors. But what they 
are, they are also vectors of prosperity. Those are our trade 
routes, as well, that we have to maintain and keep safe and 
secure.
    The blue shaded areas surrounding both coasts around 
Alaska, around the Hawaiian Islands, and our trust territories 
out in the Pacific, that is our exclusive economic zone. That 
is about--over 4 million square miles of exclusive economic 
zone. It is the largest exclusive economic zone of any country 
in the world. And we have to distribute our major cutters over 
that entire area. So it is a lot of ground to cover. And we 
just have to make reasoned, risk-based decisions.
    General Kelly generally asks for at least six Coast Guard 
cutters. We are only able to provide four nowadays. And if we 
move one up there off the Baja, we reduce him to three. So it 
is like squeezing a balloon. You only have so much in it. And 
if you have got threats and other areas, you have got to move 
them around, and it is zero-based right now, and really--we are 
really hurting for resources there.
    Ms. Hahn. Thank you. I appreciate that.
    Mr. Salmon. Thank you. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. General Kelly, your 
testimony indicates that you are basically pulling your assets 
out of the Caribbean area. What percentage of your total budget 
is consumed by Guantanamo?
    General Kelly. You mean the detainee ops at Guantanamo?
    Mr. Garamendi. Yes.
    General Kelly. It is a separate budget. It is a very 
separate mission. I own it, and we do it really well. But it is 
a separate budget. But it is about--I think we spend, just for 
the detainee ops, it is right at about $130 million, something 
on that order. And, of course, as you know, Congressman, we are 
tenants on the Navy base down there. So there are other--just 
by being there, you know, we don't have to buy electricity, and 
things like that. But $130 million is a good, round figure.
    Mr. Garamendi. Well, we are--our task is to make choices 
about how we spend our taxpayers' money. And so, Guantanamo and 
the continuation of it is expensive. And that is money that 
might have been spent elsewhere.
    Let's talk about UAVs and the deployment of UAVs for a 
patrol. You mentioned helicopters off the coast of California 
and other places. What use of--what is the use of--the 
potential of using UAVs to increase your patrol capacity? Let's 
start with Admiral Papp and then, General Kelly, if you could.
    Admiral Papp. Well, we will take maritime patrol aviation 
any way we can get it. There is really three key elements to 
doing these interdictions. First of all is having good 
intelligence. And I think probably we are strongest--out of the 
trifecta here I am going to talk about, we are strongest in 
intelligence. We have got a lot of actionable information. What 
we have is an absence of resources.
    The next key thing after you have the intelligence is your 
ability to have maritime patrol aviation out there, whether it 
is manned aircraft or UAVs. It doesn't matter, as long as we 
can have something out there that is going to detect what we 
know is moving. At the end of the day, though, you have got to 
have a surface asset there that can interdict. And that is 
where our real shortfall is.
    So, could we use more maritime aviation? Yes. Would UAVs 
help? Probably. Any additional hours we can get are going to be 
helpful. But at the end of the day you have got to have surface 
assets. And we have, as I said earlier, in terms of Coast Guard 
cutters for coverage, we are down to four down there right now. 
That is four today. We have a fleet of 44 cutters, total right 
now. We are building out new cutters. But at the end of this 
project, we are only going to have 33 cutters. So we are going 
in the wrong direction in order to provide what ends up being 
the most critical element of those three, as surface 
interdiction.
    Mr. Garamendi. General Kelly?
    General Kelly. Is there--don't have any drones of any kind 
right now. Certainly, if I could get some, I would love some. I 
mean, again, it is another form of ISR. The beauty of it is, 
you know, you--they don't get tired. So, you know, when an 
airplane has to go refuel, that kind--they can stay a lot 
longer, and the drone doesn't know that it is tired.
    Mr. Garamendi. I am specifically thinking about the use of 
UAVs such as the Global Hawk, can stay in the air 36 hours, 
long patrol areas, and provides--can provide, I should think, 
significant information. The Navy is coming up with its new 
Trident, which is a version of the Global Hawk, specifically 
designed for maritime purposes.
    I would like the two gentlemen to get back to me about how 
you might deploy that asset to the benefit of the missions that 
you have.
    [Information follows from General John F. Kelly, United 
States Marine Corps, Commander, U.S. Southern Command:]

        Any long-duration, multisensor unmanned aerial vehicles would 
        be of tremendous value to accomplishing the entire spectrum of 
        missions in the SOUTHCOM AOR. We have numerous mission areas 
        that would benefit from the imagery, signals intelligence, and 
        moving target indictor sensors on board the newer generation 
        Global Hawk and Triton aircraft. The support the Global Hawk 
        provided in Haiti proved extremely valuable to rescue and 
        recovery efforts in the initial stages of Operation UNIFIED 
        RESPONSE. The extended loiter time would help offset gaps we 
        currently experience in our detection and monitoring mission, 
        and assist meeting overland ISR information needs. As I have 
        testified in the past, the Air Force E-8C Joint Surveillance 
        Target Attack Radar System (Joint STARS), with its moving 
        target indictor capability, is a game changer in monitoring the 
        maritime domain. The Global Hawk and the Triton, with their 
        newest moving target indictor capabilities and extended 
        duration, could prove to be equally important game changers. 
        Additionally, these assets provide direct support to our 
        partner nations in both South and Central America as we work 
        together to build capability in Countering Transnational 
        Organized Crime. I understand that the Triton may not be fully 
        operational until 2017 and that the Air Force is still working 
        their long-term force structure issues in regard to the 
        composition of the Global Hawk fleet; however, the current Air 
        Force Global Hawk Variant and the Navy BAMS-D aircraft would 
        provide valuable support to my missions in both the maritime 
        and overland domains.

    Mr. Garamendi. Also, General Kelly, I believe it was 
earlier testimony in the House Armed Services Committee you 
said what you need, among others, is a platform on which to 
land helicopters. And I think you actually said an old barge 
might actually work well enough, if it had refueling 
capability. Could you expand on that, since your frigates are 
being removed? What could backfill?
    General Kelly. Well, as--that phase of the process is 
called interdiction. The detection and monitoring, I do that to 
a very, very large degree. But it is an interagency process. So 
we see this stuff, whether in go-fast or an aircraft flying out 
of Venezuela, which is--virtually all of the aircraft movement 
of cocaine is coming out of Venezuela, either making its way to 
the Central American isthmus, or increasingly, up the West 
Indies to Dominican Republic, as an example, or Puerto Rico.
    But the end-game part is, generally speaking, to put a 
helicopter in the air, vectored, over there by airborne ISR. 
They see the go-fast, they get astride the go-fast. On that 
helicopter is a marksman, United States coastguardsman. And he 
has, within his rules of engagement, he has the authority to 
shoot, if necessary, the engine or engines out of that go-fast. 
That hardly ever happens, because the go-fast knows it can't 
outrun the helicopter. So they tend to stop, throw the illicit 
cargo over the side, and then wait to be picked up by a cutter 
or a U.S. Navy ship.
    So, in my view, at least, what you really need is something 
that the helicopter could fly off of. You don't need an 
aircraft carrier, you don't need, you know, necessarily a big 
Navy ship or a Coast Guard cutter. In fact, 6 months last year 
we had the Royal Netherlands--they had a--I think it was a 
Coast Guard buoy tender. And--but it could put a helicopter on 
it, and it did great work for us in the interdiction mode.
    So, we are looking now at renting, if you will, a merchant 
ship that would be able to take a--it would be able to land and 
take off a--you know, a Coast Guard or a Navy or a Marine 
Corps, for that matter, with a coastguardsman on board, a 
helicopter, and also turning that merchant ship into a mother 
ship, so that these other smaller countries that really do the 
yeoman work for us, including places like Nicaragua, they can 
go to sea, and have a mother ship arrangement so they can get 
fuel, get food, and help us in this fight.
    Mr. Garamendi. Well, it is pretty clear--and I am just 
going to take another 30 seconds, Mr. Chairman, if I might--it 
is pretty clear that we are in tight budget situations, likely 
to continue for the next 5 to 10 years. And we need to be 
creative. As you were talking, General Kelly, I am thinking 
maritime reserve, the fleets that we have, is there any 
potential that we could use one or another of those ships, 
maybe with a modification? I like the idea of a mother ship. We 
are going to have to be very creative.
    Obviously, Admiral Papp, we are going to be short of 
cutters. There is no--that is going to be at least for the next 
5 years. Can we figure out a way of doing this with different 
kinds of assets?
    Admiral Papp. So, sir, I think General Kelly is right. We 
will take whatever we can get. However, at the end of the day, 
I have got a responsibility for the safety of my people in a 
very complex, fast-paced operation. Even landing helicopters at 
sea is not an easy thing when you have got weather out there, 
when you are launching them in the middle of the night. So I am 
reluctant to say that landing them on anything is a good thing.
    Plus, the other thing is that, even when you stop the go-
fast with your airborne use of force, you have got to have 
boats and a boarding team there to take custody, seize the 
people and the drugs, and you have got to launch that.
    Now, we have used other things. We have great partnerships 
with Great Britain, with the Dutch, and with the Canadians and 
the French, and we make use of their platforms wherever we can. 
And they are professional. They know how to land helicopters. 
They can launch and recover boats safely. We put our law 
enforcement detachments on board, and we make use of them as 
much as we can. But those countries are facing budget 
shortfalls, as well, and their participation has been 
diminished over the last couple years.
    Mr. Garamendi. Which brings us back to austerity budgeting. 
Thank you very much, gentlemen.
    Mr. Salmon. Thank you. The gentlewoman from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. First, I 
apologize for coming here on Latin time, but our subcommittee 
on Middle East and North Africa was meeting at the same time. 
So I am still over there and over here. Thank you, gentlemen, 
what a delight to be here.
    Mr. Chairman, recently we heard the startling claim that 
Latin America has surpassed Africa as the world's most violent 
region, accounting for about one-third of all global homicides. 
And we must recognize this as one of the many alarming symptoms 
of a booming transnational drug trade that is the enemy of 
security, of good governance, and democratic principles. This 
is a particularly pernicious issue in Central America and the 
Caribbean.
    An example of a proactive approach to the rise in drug-
trafficking activity in the Caribbean is the partnership that 
we have established of INL and Port Miami, a major hub for 
travel and trade in the region. And through this initiative, 
Port Miami personnel provide training in anticrime and port 
security matters to their Caribbean counterparts. But this is 
just the beginning. The administration has put more resources 
into similarly targeted programs and show that it is serious 
about combating the illicit drug trade by doing so.
    The administration's problem in Latin America is its 
failure to address the immediate needs of the region which 
affect our national security interests. And, General Kelly, 
your written testimony states, ``Insufficient maritime service 
vessels and intelligence surveillance and reconnaissance 
platforms impair our primary mission to detect these threats 
and defend the southern approaches to the U.S. homeland.'' That 
is why last year I offered an amendment to the NDAA to rectify 
this impediment and fix this issue. I intend to offer a similar 
amendment again this year, because we should not abandon the 
Western Hemisphere. And engagement is the key with democratic 
allies.
    With that in mind, what setbacks have we suffered due to 
the fact that our engagement with Honduras has been limited due 
to obstacles from the Senate? Has the positive progress of 
Operation Martillo evaporated due to the lapse of 
counternarcotics efforts?
    And, General Kelly, you also mentioned in your written 
testimony that legislative restrictions such as the prohibition 
of FMF funding with the Guatemalans limit our engagement. It is 
my understanding that there is also a DOD policy that prevents 
SOUTHCOM from utilizing to the maximum extent possible our 
assets in JTF-Bravo and Honduras for a counternarcotics 
operation. Has this policy hindered our ability to make a 
larger dent in efforts to fight drug trafficking?
    And these efforts are critical, not only because they 
threaten our security and that of our allies, but also because 
the illegal drug trade in this hemisphere impacts our national 
security interest through the world. Foreign terrorist 
organizations such as Hezbollah and the FARC engage in these 
illicit activities and fund their operations and advance the 
dangerous ambitions of regimes like that of Iran, which, as we 
have seen, is expanding its presence in the Western Hemisphere. 
Drugs equals terrorism financing.
    And lastly, I would like to raise an issue with the Coast 
Guard. My office has received information that our Coast Guard, 
with the help of the State Department, traveled to Cuba and is 
seeking to reach an understanding with a State-sponsored 
terrorism on counternarcotics efforts. I think it is appalling 
that our Coast Guard wishes to have closer ties with the Cuban 
regime that is the same tyranny that actually gives refuge--it 
harbors drug traffickers. It jails American citizens, supports 
terrorism, and was caught red-handed as recently as this 
summer, trying to smuggle military equipment to North Korea 
through the Panama Canal--and we thank Panama for stopping it--
and provides, to this day, safe haven to American fugitives.
    So, I share your concern with the rise in drug trafficking 
through the Caribbean, but doing business with the Cuban regime 
is not the solution, because they are actually part of the 
problem. And I will give it to anyone who would like to 
comment.
    Thank you, Admiral.
    Admiral Papp. Thank you, ma'am. And, as always, thanks for 
your interest and support for the Coast Guard. And I regret 
that you are troubled by the activities. I will get more 
specifics and get a report back to you.
    Ms. Ros-Lehtinen. It would be very helpful. Thank you so 
much. It concerns many of my constituents. I know that it is 
dismissed by some. But, as a person who lost her homeland to 
Communism--I was born in Cuba, came here as a refugee, 
represent thousands of people in similar ways--we don't have a 
romanticized view of the Communist tyranny in Cuba.
    Admiral Papp. Yes, ma'am. We do keep a line of 
communication open I think, first of all, to protect our 
people, to make sure that there is never any mistake. As you 
know, the Freedom Flotilla and other activities over the years, 
we have lost people. And we try to make sure that we at least 
have some line of communication open so that we can prevent any 
mistakes from happening and putting people in jeopardy. We also 
get good information on other illegal activities. But we will 
take a review of this and make a report back to you on----
    Ms. Ros-Lehtinen. I would greatly appreciate it. Thank you 
so much, Admiral.
    Admiral Papp. Yes, ma'am.
    [The information follows:]

        The U.S. Coast Guard is the lead Federal agency for maritime 
        safety, security and stewardship. The Coast Guard maintains a 
        Telex link with the Cuban Border Guard for passing maritime 
        counterdrug, illegal migration, and search and rescue 
        information. The Telex link is the formal means of 
        communication between the Coast Guard and Cuban Border Guard. 
        The Telex system was established in 1980 to facilitate the 
        transmittal of preapproved messages containing nonsensitive, 
        real-time, tactical search and rescue information and 
        suspicious aircraft and vessel movements.

        On a case-by-case basis, the Coast Guard and Cuban authorities 
        share tactical information related to vessels transiting Cuban 
        territorial waters suspected of trafficking drugs or migrants 
        through Cuban territorial waters. This exchange of information 
        with Cuban Border Guard assists in enhancing the maritime 
        security and maritime domain awareness of the U.S. The Telex 
        link is facilitated by a Coast Guard Drug Interdiction 
        Specialist assigned to the U.S. Interests Section in Havana.

        Since July 2009, given an increased rate of maritime drug 
        smuggling in the Caribbean, the Cuban Government has repeatedly 
        asked to expand counternarcotics cooperation. The Department of 
        State (DOS) accepted the Government of Cuba's invitation to 
        meet in Havana on April 10 and 11, 2014; at the request of the 
        DOS, two members from the Coast Guard's Office of Law 
        Enforcement Policy participated in this DOS-led engagement. At 
        this meeting, the Cuban and U.S. delegations shared concerns 
        over the rising levels of drug smuggling in the Caribbean, with 
        a focus on the maritime route around Cuba's eastern tip between 
        Jamaica and the Bahamas.

        The U.S. delegation discussed nonbinding protocols for 
        operational, on-scene maritime communication coordination 
        between the U.S. Coast Guard and the Cuban Border Guard; and 
        for streamlining the bilateral confirmation of suspect vessel 
        registry and possible ``stop, board, and search'' 
        authorization. If implemented, these procedures would help to 
        prevent drug traffickers' exploitation of Cuban territorial 
        waters and Cuban-flagged vessels as a means to evade law 
        enforcement.

    Ms. Ros-Lehtinen. And I thank the chairman and the 
chairman-in-waiting.
    Mr. Hunter [presiding]. Thank the gentlelady from Florida. 
We are going to go through one more round, if we have time. I 
just have--I have one last quick question that goes on what Mr. 
Garamendi was talking about.
    Admiral, when you talk about the assets, and you talk about 
the system, kind of the in-the-box acquisitions programs, and 
Congress ruining all of that, when at the same time, if you get 
a platform--and I think--I know this is crazy, but to put it in 
visual terms, ``Waterworld,'' you got Dennis Hopper on the big 
tanker, ``Waterworld,'' you know, the movie? Kevin Costner? I 
thought it was a great movie.
    [Laughter.]
    Mr. Hunter. But you have the big tanker, and you are able 
to operate off of that, why couldn't you use the Ready Reserve 
Fleet? Why couldn't you use--or why couldn't you use floating 
platforms out there? And if the Coast Guard feels that it is 
dangerous, why not man those with contractors? It is kind of 
like an icebreaker. It doesn't need to be manned by the U.S. 
military, be manned by people that know how to drive an 
icebreaker. They are not shooting at people who are shooting 
back.
    So, why can't we think outside the box on this stuff? You 
have the Office of Naval Research, and a lot of other groups 
have a lot of other ships they can use for interdiction. They 
use them for testing purposes in San Diego and Norfolk, off 
of--in Florida, too. I mean these--there are interdiction 
assets out there. There are platforms out there, tons of them, 
which you could land a helicopter off and take off from.
    So, if that is what is holding us back, you can't always be 
blaming it on sequestration and Congress is dumb. Why not go 
outside of the box a little bit and start doing--if you have 
everything down, why not do the interdiction part? If it is not 
that difficult.
    Now, let me just--let me finish. Fifty years ago, if you 
had this problem you would have given this to somebody, given 
them $5 million, and they would interdict, and they would 
probably do a really good job of it. But instead, now, we kind 
of have this system that we have to work at. And if we don't 
get enough of our ships that we require by nature of our 
requirements and the whole shipbuilding fleet building those 
particular ships, then we are not going to do it, because we 
don't have the right ship to do it.
    So why not think outside the box, like Mr. Garamendi was 
talking about? Why not use merchant mariners? Why not use the 
RAF? Why not use our people that we pay to be ready to go 
anyway?
    Admiral Papp. I can report back to you on all the 
innovative things that we have done. We actually look for 
anything that is passing through the area.
    While not related to Western Hemisphere approaches, for 
instance, right now Admiral Locklear in Pacific Command, when 
he has ships that are transiting out to the WESTPAC, we are 
putting Coast Guard law enforcement detachments on them and 
running them through those--where I showed you the blue areas 
out in the Pacific around our trust territories and partner 
nations, we are sending them through there and doing fisheries 
law enforcement to protect the tuna fleet out there, things 
like that.
    So, we look for those opportunities. And, as I said, we 
have had British oilers, Dutch oilers--anything that we can get 
that is going to be in the Caribbean or the eastern Pacific 
that we know is going through, we take advantage of. We work 
with Fleet Forces Command down in Norfolk to make sure that, if 
people are up doing training deployments, whatever--the 
Canadian vessels that we have had down there, that is, once 
again, the result of talking to Maritime Forces Pacific, 
Maritime Forces Atlantic, the Canadian commands. And when they 
have ships that have to go on workups, instead of sending them 
other places they are now sending them down to the Caribbean or 
the eastern Pacific, and we are putting Coast Guard law 
enforcement detachments on them.
    So, we make use of anything that we know about. We will 
investigate and see what else is out there. Like anything else, 
if you are going to get a Ready Reserve Fleet ship underway, 
somebody has got to pay for that. Somebody has got to come up 
with the money, somebody has got to pay the mariners to come on 
board. We have reserve fleets that are out there, but I have 
seen the challenges that are faced when we have to work them up 
to get them ready. Just the one ship, the Cape Ray, that we 
sent over to deal with the Syrian chemicals, getting the 
mariners available and getting the money to run the ship and 
bring it up to standards, it is a challenge.
    Granted, I will take a Coast Guard cutter or a U.S. Navy 
ship any time I can, because I know, when I put a Coast Guard 
helicopter out there, there is standardization of protocols for 
landing, recovery, hot refueling, and everything else, because 
landing helicopters is a dangerous business. We have lost 
people doing that.
    So I--my only caution when I was talking to Mr. Garamendi 
was that you can't just--it is easy to say, ``Let's put a barge 
out there,'' or, ``Let's put a tanker out there,'' or something 
else. My Coast Guard pilots can land on anything in an 
emergency. Is it an effective platform for prosecuting go-fast 
vessels and be able to go back and hot refuel and carry 
ammunition and everything else?
    Mr. Hunter. I am going to be out of time.
    Admiral Papp. I don't know. We would have to work that 
through.
    Mr. Hunter. But I would argue that it is better than 
nothing, which is what you have now, or very little.
    General Kelly. If I could add?
    Mr. Hunter. Yes.
    General Kelly. We are already doing it, actually. Within 
the next couple of months I will have a--I have asked the 
system, and one of my fellow CO-COMS has found the money, and 
we will have about a 350-foot ship manned by U.S. merchant 
seamen, and we will use that as a proof of concept--it is not 
modified yet--to launch and recover helicopters.
    As we move to the next step and do that, of course, we will 
have the right kind of training and the right kind of 
procedures, and the right kind of gear and equipment. But that 
ship, at least for--it is coming on--it will be working for me 
within the next 6 or 8 weeks, and I will have it for at least a 
year before we then move on to the next step, with helicopters.
    But while we are doing that, it will be working close in to 
Belize, Honduras, Guatemala. We already have U.S. Special 
Forces guys and gals, our U.S. Marines working with those 
partner nations on riverine ops, small boat--riverine ops are 
close in to the littorals. This ship will give them an 
opportunity to go further out, working for us, cued by our 
assets to go after go-fast, but they will be able to go further 
out because it will be a gas station. So we are actually doing 
everything you just described already in the next 6 or 8 weeks. 
And I will let you know how it goes.
    Mr. Hunter. Thank you. One last question. Do you have to 
be--you said Coast Guard snipers out of helicopters. Does it 
have to be Coast Guard snipers, or can it be--because they have 
the unique law enforcement, military side? Or can it be anybody 
from any service?
    General Kelly. It is the law enforcement aspect. DOD, we 
can--you know, the DOD asset can do everything but the law 
enforcement part of it. So the shooter has got to be a Coast 
Guard or someone in law----
    Mr. Hunter. Or, like, DEA or FBI, or whoever.
    General Kelly. Possible. But I think I would let the 
Commandant, you know, fill you in on that.
    Admiral Papp. Sir, it could be, as long as they go through 
the training. Getting the airborne use of force----
    Mr. Hunter. They would have to be a sniper, right?
    Admiral Papp. Airborne use of force authorities was very 
difficult and challenging for us. We have to take that through 
the Department of Justice, because we need to be able to get 
their support to defend our shooters if something happens or 
goes wrong.
    So, who the shooter is, as long as we take them through our 
courses, get them certified. And, in fact, we have used other 
than Coast Guard. We have used Navy marksmen, as well, off Navy 
helicopters. And I am sure we could train other people. It is 
just a matter of taking them through the process.
    Mr. Hunter. That is all I have. I am going to yield now. 
But thank you, Admiral and General and Ambassador. Admiral, 
great to see you this last time. Wish you well. And I yield to 
Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. Working with you, I 
want to pursue thinking out of the box, and how we might be 
able to pursue the discussion and, quite possibly, the 
utilization, as we were just talking here. So we will leave 
that for the future and carry that on.
    I do want to--I have been asked by one of our friends from 
the Foreign Affairs Committee to raise the issue with General 
Kelly about the expulsion of 20 U.S. Defense Department 
employees that were attached to the U.S. Embassy in Quito. I 
believe this happened over the last couple of weeks. Could you 
just briefly brief us on that, what it was all about, why it 
happened?
    General Kelly. I think Quito's actions--Ecuador's actions 
are kind of in line with kind of a general loss of U.S. 
influence in this part of the world, in Latin America, and for 
a lot of different reasons.
    In Ecuador's case, in particular, my folks that were 
there--and they were my folks--not all of the military, by the 
way; an awful lot of disinformation passed by the capital and 
by the President of that country. But at the end of the day, 
Ecuador has thrown its lot in with countries like Venezuela, 
like Russia, like China. That is where they see the future of 
Latin America. So they have made that move.
    But the people that were in there working with them with 
full knowledge of the Ecuadorian Government, they have been 
there for years and years and years. They were working with 
them on the counterdrug effort, which is a real problem in 
Ecuador. They have been helpful, the Ecuadorians have. But they 
have decided to throw their lot in with other countries, so we 
are in the process of----
    Mr. Garamendi. A geopolitical issue and----
    General Kelly. Yes. And, you know, it is a great way to 
snub their nose at the United States.
    Mr. Garamendi. OK. And this is a question from 
Representative Engel to you, Mr. Papp. I am just going to 
briefly go over it. The defense--a November 15, 2013, interview 
with Defense News, you stated that since you have lost naval 
ships in the eastern Pacific and Caribbean for drug 
interdiction, the Coast Guard would publish a Western 
Hemisphere strategy on how to fill these gaps. That is 5 months 
ago, and Mr. Engel wants to know when is the report due. What 
is the status of it?
    Admiral Papp. Yes, sir. We have been trying to come up with 
strategies for the specific areas, evolving missions. We put 
out an Arctic strategy just last year, and we have been working 
on our Western Hemisphere strategy.
    My feeling is, with the focus of the Department of Defense 
assets going towards the Pacific, we still have 
responsibilities in the Pacific. But my primary 
responsibilities are along those threat vectors that were shown 
in the chart up there. So, how do we conduct that? How do we 
use that for support? How do we lay out what our doctrine is 
for the Service and get that approved by our Department is 
important.
    We are very close. I have read through the draft. However, 
we have a new Commandant that is coming in in 30 days. And I 
thought that, rather than make it look like I am signing off on 
a Western Hemisphere strategy as I go out the door, there 
should be buy-in from the next Commandant, which I believe 
there is. And he will publish it shortly after taking command 
of the Service.
    Mr. Garamendi. Thank you very much, Admiral. I think that 
is exactly the right thing to do, let the next fellow coming 
in, let it be his program, also. And I am sure you will be 
building off yours. That was Mr. Engel's question.
    I see our chairman has returned, and I believe Ms. Hahn has 
a question.
    Mr. Hunter. I yield to the gentlelady and our colleague 
from California.
    Ms. Hahn. Thank you, Chairman. And I want to go on the 
record. Obviously, it is disheartening for me to hear about the 
incredible cuts that we have imposed on our Coast Guard and, 
again, continuing to ask them to do more with less. And we are 
the United States Coast Guard. To be talking about contracting 
out, and landing on barges, and--it is really unfortunate.
    I wish we could restore the cuts we made, and not impose 
the next round of sequestration on our Coast Guard. We either 
believe in your mission and what you are trying to do, or we 
don't. And it is unfortunate that we are at this state. So I 
just want to go on the record saying I believe in your mission, 
and I really feel like we are shortchanging not only your 
Department, but certainly the American people.
    Ambassador, one of the primary missions behind the Bureau 
of International Narcotics and Law Enforcement Affairs is to 
build partnerships with State and local law enforcement 
agencies here at home in order to allow these agencies to 
provide their unique expertise to foreign agencies and 
governments that desperately need it. In order to incentivize 
State and local agencies to provide this expertise, the State 
Department reimburses these agencies for the cost incurred. 
That strengthens our overall international security. That also 
bolsters our relationships with our foreign partners, while 
simultaneously creating opportunities here at home.
    I would like for you to talk about your agency's work with 
our Los Angeles County Sheriff's Department and the California 
Department of Corrections, and explain how their expertise and 
training has been critical in preventing violence in foreign 
countries, particularly Mexico.
    Mr. Arreaga. Thank you very much. The California Department 
of Corrections and Rehabilitation has provided training to 
Mexican and Salvadorian corrections officers. Now, these--the 
type of training they receive is the type of training to deal 
with some of the very hard-core issues that these institutions 
face in their own countries. For instance, riots, the 
protection of the facilities, and many times, facilities--we 
think of facilities of keeping people from going out. But a lot 
of times some of the challenges that they face is actually 
people trying to come in to free prisoners. So, we have a whole 
range of programs that are trying to provide those kinds of 
trainings to them.
    I will owe you an answer on the question of the Los Angeles 
Sheriff's Department. I don't have that with me right now, but 
I will certainly provide it. But we have many other 
opportunities. Let me give you a couple of examples.
    The Superior Court of Arizona has provided forensic 
training to Costa Rica for judges, prosecutors, and defense 
attorneys. The New York Police Department, as it was mentioned, 
provides some training in Haiti. The Broward County sheriff has 
trained the Bahamian police and other agencies on gender-based 
violence. The Miami-Dade Police Department has trained Haitian 
police. The North Miami Police Department has trained the 
Trinidad and Tobago police on sex crimes. I mean the list goes 
on. For us, it is quite a pleasure to have these partnerships.
    Another example is, for example, the Washington State 
Criminal Justice Training Commission hosted a study tour by the 
Mexican police managers. The California Department of 
Corrections--I think I mentioned that already, yes. So, we have 
a long list, and this is a list that is growing.
    Of course, we have to be careful not to stretch ourselves 
too thin and find the comparative advantage that these 
institutions bring to the table, so that we can leverage it 
when we go overseas.
    Ms. Hahn. Thank you. Admiral Papp, I just want to ask you 
one last question. One of the things you mentioned earlier was 
that you think we need to address in this war on drugs is the 
demand, along with the supply. And wondering if this trend in 
the United States--Colorado, Washington, probably California 
will be next in legalizing marijuana. Do you think that this is 
going to have a long-term impact, or effect, in stemming the 
U.S. demand for illegal drugs? Or have we had enough time to 
analyze what this is actually going to mean in this--in drug 
trade?
    Admiral Papp. I don't think we have had enough time. We 
discussed it at the last principals meeting of the Interdiction 
Committee. And, across the board for most of the agencies--and 
this includes all the homeland security agencies, DEA, Justice 
Department, FBI, NORTHCOM, SOUTHCOM, and others--the anecdotal 
information coming back from most of the partners in dealing 
with our South and Central American partners are that they are 
confused by the signals that the legalization sends.
    They wonder about our commitment to continuing the fight. 
And when they are investing so much, both in resources and 
blood, they have to question that. They want to know about our 
commitment. Plus, they see fewer and fewer U.S. resources 
coming down there to join them. We reassure them. We tell them 
what the law is, and our continued commitment. But it can't 
help but create some doubts.
    Other anecdotal information is because of changes in the 
market with legalization and homegrown marijuana, that is 
causing some people to switch to heroin production now, 
increasing the heroin on our streets. So it is a complex, 
multivariable equation, which I don't think we have a good 
handle on, but it is causing a lot of concern.
    And I just want to give you my thanks for, once again, your 
advocacy and your comments here before you turn to the other 
question. And I don't want to leave anybody with the impression 
that I am unwilling to look at other things. We are trying to 
innovate and make use of whatever resources are available out 
there. My job, as the Commandant of the Coast Guard is to 
advocate for what I think, in my best military advice, is best 
for the country. I advocate for Coast Guard cutters because 
they are a known entity. We have qualified, trained Coast Guard 
people, and boarding parties, people who can handle boats, who 
can land and launch and recover helicopters safely.
    And, if some other incident, whether it is a mass migration 
or a fisheries patrol or something in the Bering Sea, I can 
send them to do those activities, as well. Whereas as a barge 
that can land a helicopter is pretty much a single mission 
thing that I can't use for anything else in the Coast Guard. 
While it might be valuable and give us something more, my job 
is to give you the optimal solution. Then yours is to decide 
whether we can afford it or not. But thank you.
    Ms. Hahn. Thank you. Thank you, Mr. Chairman.
    Mr. Hunter. Thank the gentlelady.
    Ms. Hahn. I yield.
    Mr. Hunter. And one last question that she just made me 
think of. Who is in charge of saying, ``We are not going to go 
after weed any more, we are going to focus on''--and do you do 
that when it comes to targeting? I mean do you say there is a 
bunch of--there is, I don't know, tons of bales of marijuana 
coming in, and heroin and cocaine, and we are going to 
prioritize those according to--how? And who makes those 
decisions? Or is that not how it happens?
    Admiral Papp. There is no question, sir. It is illegal, and 
we continue to target it. And we will stop it to the best of 
our ability with the resources----
    Mr. Hunter. But what I am saying, though, is the opposite 
of that. If you are going to have--and you are, most likely, in 
the next 10 years--let's say 20 States legalize marijuana, it 
becomes decriminalized, which it basically is now anyway, 
especially in the western side of the country, why keep going 
after something that has been approved by the States? And I am 
asking who makes that decision? Who says, ``Stop going after 
the marijuana loads. We are going to go after heroin and coke 
and meth,'' or the precursors, whatever--who makes that 
decision?
    General Kelly. Well, at least in my realm, Congressman, I 
focus--we don't see a lot of marijuana moving from Latin 
America into--if you don't count Mexico--moving into the United 
States. It is cocaine, methamphetamines, heroin. It is my 
understanding most marijuana consumed in the United States now 
is grown all over the country.
    Mr. Hunter. Made in America.
    General Kelly. Domestically, yes. You know, it is grown in 
cellars in Manhattan, it is grown in national forests in 
Colorado.
    But to what the Commandant said about dealing with our 
partners, I mean we get--you know, our drug problem has caused 
many countries in Latin America, the most violent places on 
earth--Honduras being the most violent place on the planet, and 
much of that is due--almost all of it is due to our drug 
problem, as the drug traffics through. The police throughout 
most of the region are either entirely corrupt or so 
intimidated that they won't do their jobs, because they are so 
intimidated against--because of the violence. Courts and judges 
and all of the same thing.
    So, to give you an example--or the example--when Colorado 
and Washington legalized marijuana, you know, I was queried by 
a lot of the partners. And I said, ``Don't worry, it is still 
against Federal law, and the law will be enforced.'' And, of 
course, it is my understanding--I am not a domestic guy--but it 
is not being enforced. And the word--and, you know, I have said 
this before--the word ``hypocrite'' comes into the 
conversation. And, you know, as we are--everyone at this table 
is certainly trying to convince these countries to stay in the 
fight, fight our fight against drugs, we seemingly are not 
caring much about drugs any more.
    So I find it pretty hard. And I am pretty close to a lot of 
ministers of defense, Presidents, you know, people like that. A 
very different relationship than even our State Department has 
with them. And, you know, they are pretty nondiplomatic with 
me, as I am to them. And they wonder what, frankly, what the 
hell we are doing.
    But I don't--and you see an increasing number--start 
talking President Santos of Colombia. God, if they stop what 
they are doing in terms of our drug fight, we are really, 
really screwed. I mean they took 200 tons of cocaine off the 
market last year. They manually eradicated 30,000 hectares of 
coca before it was picked. They destroyed--found and destroyed 
1,500 cocaine labs. If they stop doing that because they see 
less of a commitment in our country and a move towards 
legalization, we might as well, you know----
    Mr. Hunter. Why would you tie in the legalization of 
marijuana with heroin and coke?
    General Kelly. Well, they see a general lack of enforcement 
and getting after some of these other drugs. And as everyone at 
this table has pointed out, the solution, to a large degree--
not the elimination, but the solution to the drug problem is 
before it gets to Mexico and into the United States. And there 
is almost no commitment to do that, based on what they see, in 
spite of the fact we do work with them and we do give a certain 
amount of money, and we do have, you know, at least--like today 
we have three Navy ships, four Coast Guard cutters in the 
Caribbean and in the Pacific doing the work. That comes and 
goes. And they don't see the commitment. And they have got 
others things to spend their money on, as well.
    Mr. Hunter. That is all I have. I don't think there are any 
other Members here to ask questions. So, with that, this 
subcommittee is adjourned.
    [Whereupon, at 11:51 a.m., the subcommittees were 
adjourned.]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    
</pre></body></html>
